            Office of Inspector General




December 7, 2006

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUBJECT:         Audit Report – Fiscal Year 2006 Postal Service Financial Statements
                 Audit – Washington, D.C., Headquarters
                 (Report Number FT-AR-07-004)

This report presents the results of our audit of selected financial activities and
accounting records at U.S. Postal Service Headquarters for the fiscal year ended
September 30, 2006 (Project Number 06BM004FT000). The Postal Reorganization Act
of 1970, as amended, requires annual audits of the Postal Service’s financial
statements. This audit was conducted in support of the independent public accounting
firm’s overall audit opinion on the Postal Service’s financial statements.

Postal Service management’s financial accounting policies and procedures conformed
with accounting principles generally accepted in the U.S. and provided for an adequate
internal control structure. Additionally, general ledger account balances for
unemployment compensation and Governors’ and officers’ travel and expenses were
fairly stated in the national trial balance in accordance with accounting principles
generally accepted in the U.S. and conformed with the general classification of accounts
on a basis consistent with that of the previous year.1 Also, we did not identify any
instances of noncompliance with laws and regulations that have a direct and material
effect on the financial statements.

We discussed the results of the audit with management on December 1, 2006.
Because we provided no recommendations, management chose not to respond to this
report.




1
 We limited our coverage of workers’ compensation to a comparison of prior year’s source code and verification of
data in the Workers’ Compensation Master File. Accordingly, we did not verify the accuracy of the account balance.
The Board of Governors’ independent public accounting firm performed that verification.
We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information, please contact Lorie Siewert,
Director, Financial Statements, or me at (703) 248-2100.

   E-Signed by John Cihota
ERIFY authenticity with ApproveI




John E. Cihota
Deputy Assistant Inspector General
 for Financial Operations

Attachment

cc: H. Glen Walker
    Robert J. Pedersen
    Vincent H. DeVito, Jr.
    Steven R. Phelps
Fiscal Year 2006 Postal Service Financial Statements Audit –                        FT-AR-07-004
 Washington, D.C., Headquarters


                                         INTRODUCTION
Background                     U.S. Postal Service Headquarters Finance establishes
                               accounting policies and provides guidelines for recording
                               and reporting Postal Service financial transactions. Internal
                               control and reporting systems have been created to ensure
                               management and the public receive meaningful financial
                               information in accordance with generally accepted
                               accounting principles. We conducted this audit in support of
                               the independent public accounting firm’s overall audit
                               opinion on the Postal Service’s financial statements.

                               We will issue separate financial statements audit reports for
                               the Eagan, San Mateo, and St. Louis Information
                               Technology and Accounting Service Centers (IT/ASCs).
                               Further, in addition to the overall opinion on the Postal
                               Service's financial statements, the Board of Governors’
                               independent public accounting firm contracted to express an
                               opinion on the financial statements will issue separate
                               reports on the Postal Service's internal controls and
                               compliance with laws and regulations. Also, we will issue a
                               separate report for the audit of fiscal year (FY) 2006
                               information system controls at the Eagan, San Mateo, and
                               St. Louis IT/ASCs.

Objectives, Scope,             The objectives of the audit were to determine whether:
and Methodology
                               •   The financial accounting policies and procedures
                                   provided for an adequate internal control structure and
                                   were in compliance with accounting principles generally
                                   accepted in the U.S.

                               •   Accounting transactions that affect the general ledger
                                   account balances for unemployment and workers’
                                   compensation, and for Governors’ and officers’ travel
                                   and expenses, were fairly stated in the national trial
                                   balance in accordance with accounting principles
                                   generally accepted in the U.S.

                               •   General ledger account balances conformed with the
                                   general classification of accounts of the Postal Service
                                   on a basis consistent with that of the previous years.




                                                     1
Fiscal Year 2006 Postal Service Financial Statements Audit –                                     FT-AR-07-004
 Washington, D.C., Headquarters



                                •   The Postal Service was in compliance with laws and
                                    regulations that have a material and direct effect on the
                                    financial statements as a whole.

                                To accomplish our objectives, we conducted fieldwork from
                                March through November 2006. As part of our audit, we
                                assessed internal controls, tested transactions, and verified
                                $54.9 million in unemployment compensation liability as of
                                September 30, 2006. We limited our coverage of workers’
                                compensation to a comparison of prior year’s source code
                                and verification of data in the Workers’ Compensation
                                Master File. Accordingly, we did not verify the accuracy of
                                the account balance. The Board of Governors’ independent
                                public accounting firm performed that verification.

                                In addition, we verified the Board of Governors’ travel and
                                miscellaneous expenses totaling about $63,000, and
                                external professional fees totaling about $21,000. Also, we
                                tested and accepted officers’ travel and representation
                                expenses totaling about $1.0 million. We issued a separate
                                report for our audit of the FY 2006 Board of Governors’
                                travel and miscellaneous expenses.2 We will issue a
                                separate report for our audit of the FY 2006 officers’ travel
                                and representation expenses.

                                We conducted this audit from March through
                                December 2006 in accordance with generally accepted
                                government auditing standards and included such tests of
                                internal controls as were considered necessary under the
                                circumstances. We discussed our observations and
                                conclusions with management officials and included their
                                comments where appropriate.

                                We relied on computer-generated data from several Postal
                                Service financial systems, including the e-Travel system,
                                Chase Insight, Workers’ Compensation Master File,
                                Accounting Data Mart, and the General Ledger. We
                                performed specific internal control and transaction tests on
                                these systems’ data, to include tracing selected financial
                                information to supporting source records. For example, we
                                reconciled the number of claimants and dollar amounts on

2
 Postal Service Board of Governors’ Travel and Miscellaneous Expenses for Fiscal Year 2006 (Report Number
FT-AR-07-003, dated December 5, 2006).




                                                      2
Fiscal Year 2006 Postal Service Financial Statements Audit –                       FT-AR-07-004
 Washington, D.C., Headquarters


                               the Workers' Compensation Master File against Department
                               of Labor payment records.

Prior Audit Coverage           We have audited the financial activities and accounting
                               records at Postal Service Headquarters since FY 1998 and
                               have not identified any reportable conditions. We disclosed
                               the results of our most recent audit for FY 2005 in the audit
                               report, Fiscal Year 2005 Postal Service Financial Statement
                               Audit – Washington, D.C., Headquarters (Report Number
                               FT-AR-06-002, dated November 16, 2005).




                                                     3
Fiscal Year 2006 Postal Service Financial Statements Audit –                                         FT-AR-07-004
 Washington, D.C., Headquarters


                                            AUDIT RESULTS
Audit Results                     Management’s financial accounting policies and procedures
                                  conformed with accounting principles generally accepted in
                                  the U.S. and provided for an adequate internal control
                                  structure. Additionally, general ledger account balances for
                                  unemployment compensation and Governors’ and officers’
                                  travel and expenses were stated in the national trial balance
                                  in accordance with accounting principles generally accepted
                                  in the United States and conformed with the general
                                  classification of accounts on a basis consistent with that of
                                  the previous year.3 Also, we did not identify any instances
                                  of noncompliance with laws and regulations that have a
                                  direct and material effect on the financial statements.

Management’s                      We discussed the results of the audit with Postal Service
Comments                          management on December 1, 2006. Because there were
                                  no recommendations provided, management chose not to
                                  respond to this report.

Evaluation of                     No action by management was required.
Management’s
Comments




3
 We limited our coverage of workers’ compensation to a comparison of prior year’s source code and verification of
data in the Workers’ Compensation Master File. Accordingly, we did not verify the accuracy of the account balance.
The Board of Governors’ independent public accounting firm performed that verification.




                                                         4
